   April 5, 2006




Acquisition
Capabilities Definition Process at the
Missile Defense Agency
(D-2006-071)




             Department of Defense
            Office of Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ABL                   Airborne Laser
BMD                   Ballistic Missile Defense
BMDS                  Ballistic Missile Defense System
IG                    Inspector General
IPP                   Integrated Program Policy
MDA                   Missile Defense Agency
MOA                   Memorandum of Agreement
ORD                   Operational Requirements Documents
SE                    System Engineering and Integration
THAAD                 Terminal High-Altitude Area Defense
USSTRATCOM            United States Strategic Command
WIP                   Warfighter Involvement Program
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704




                                                                             April 5,2006

MEMORANDUM FOR DIRECTOR, MISSILE DEFENSE AGENCY
               COMMANDER, UNITED STATES STRATEGIC
                 COMMAND
SUBJECT: Report on Capabilities Definition Process at the Missile Defense Agency
         (Report No. D-2006-071)

      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.
        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Therefore, in responding to the final report, we request that the Commander, United
States Strategic Command provide additional comments on Recommendation 2. by
May 5,2006.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudACM@,dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the I Signed I
symbol in place of the actual signature. lf you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(STPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Harold C. James at (703) 604-9088 (DSN 664-9088). See Appendix C for the
report distribution. The team members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:




                                 Acquisition and Contract Management
               Department of Defense Office of Inspector General
Report No. D-2006-071                                                        April 5, 2006
   (Project No. D2006-D000AE-0078.000)

                          Capabilities Definition Process
                          at the Missile Defense Agency

                                 Executive Summary

Who Should Read This Report and Why? Management staff at the Missile Defense
Agency, the combatant commands, and the Offices of the Under Secretary of Defense for
Acquisition, Technology, and Logistics; the Director, Test and Evaluation; and the Joint
Chiefs of Staff should read this report because it discusses the capabilities definition
process for the Ballistic Missile Defense System.

Background. This is the second and final report issued in response to allegations made
to the Defense Hotline in March 2003. The first report addressed 10 allegations about the
effectiveness of the process that the Missile Defense Agency used to manage and acquire
targets. This report addresses five allegations about the processes that the Missile
Defense Agency used to define required capabilities for the Ballistic Missile Defense
System. See Appendix B for the five allegations and audit results. The Missile Defense
Agency budget for FY 2006 was $7.7 billion in research, development, test, and
evaluation funds.

The five allegations about defining required capabilities for the Ballistic Missile Defense
System involved Missile Defense Agency management in two broad areas:

       •   disregard of missile defense requirements that the Services previously
           established in operational requirements documents, and

       •   flaws in the Missile Defense Agency’s system capability-based requirements
           process.

Results. We did not substantiate the five allegations. The Missile Defense Agency did
not disregard missile defense requirements that the Services previously established in
operational requirements documents. Additionally, since the Defense Hotline received
the allegations in March 2003, the Missile Defense Agency had made substantial
progress in implementing a process for defining capability-based requirements. Although
we did not substantiate the specific allegations, we did find that the Missile Defense
Agency had not completed defining the processes for developing capability-based
requirements and for coordinating with the combatant commanders to prioritize their
capability-based requirements. Specifically, the Director, Missile Defense Agency needs
to establish dates for Missile Defense Agency organizations to complete documenting the
processes and procedures for defining capability-based requirements in support of key
Director decisions. Additionally, the Director, Missile Defense Agency and the
Commander, United States Strategic Command need to finalize and approve the draft
memorandum of agreement outlining the responsibilities for their agencies to work
together in developing capability-based requirements for missile defense. Further, the
Director and the Commander should establish completion dates for preparing and
finalizing directives discussed in the memorandum of agreement that will define Missile
Defense Agency and the United States Strategic Command responsibilities for
coordinating and ensuring that the combatant commanders have a role in establishing
capability-based requirements for the Ballistic Missile Defense System elements.

Management Comments and Audit Response. The Executive Director of the Missile
Defense Agency responded for the Director. The Executive Director stated that the
Missile Defense Agency would include processes and procedures for defining capability-
based requirements in the Systems Engineering Plan. Instead of finalizing the draft
memorandum of agreement for coordinating capability-based requirements for the
Ballistic Missile Defense System elements with United States Strategic Command, the
Executive Director proposed alternative actions to meet the intent of the
recommendation. Specifically, she stated that the Missile Defense Agency would use its
Integrated Program Policy and Systems Engineering Plan to document the combatant
commanders’ roles in developing capability-based requirements in Missile Defense
Agency products and processes. Also, she stated that the United States Strategic
Command would coordinate a Command Directive to implement combatant commander
activities in the Combatant Command Warfighter Involvement Process. The Audit
Program Coordinator at the United States Strategic Command, responding for the
Commander, stated that the United States Strategic Command would, in coordination
with the combatant commanders, work with the Missile Defense Agency to ensure that
the combatant commanders have a role in establishing capability-based requirements for
the Ballistic Missile Defense System elements.

In response to the final report, we request that the Commander, United States Strategic
Command describe specific actions taken or planned in response to the agreed-upon
recommendation, provide an estimated completion date for the actions, and sign the
comments by May 5, 2006.




                                            ii
Table of Contents

Executive Summary                                            i

Background                                                   1

Objectives                                                   2

Managers’ Internal Control Program                           2

Finding
     Implementing a Capability-Based Requirements Process    3

Appendixes
     A. Scope and Methodology                               10
         Prior Coverage                                     10
     B. Results of Review of Five Allegations               11
     C. Report Distribution                                 15

Management Comments
     Missile Defense Agency                                 17
     United States Strategic Command                        19
Background
        This is the second and final report issued in response to allegations made to the
        Defense Hotline. The first report addressed 10 allegations about the effectiveness
        of the process that the Missile Defense Agency (MDA) used to manage and
        acquire targets. This report addresses the five allegations that were made
        concerning the processes that MDA used to define required Ballistic Missile
        Defense System (BMDS) capabilities. See Appendix B for the five allegations
        and audit results.

        We began this audit in November 2004. Because of work priorities within the
        DoD Office of Inspector General, we suspended this audit from February through
        October 2005. Accordingly, the finding discusses:

                 •   the status of MDA implementation of a capability-based requirements
                     process as of February 2005,

                 •   progress in MDA implementation made from February 2005 through
                     January 2006, and

                 •   work MDA must still complete to fully implement the capability-based
                     requirements process.

        National Missile Defense Policy. On July 22, 1999, the President signed the
        National Missile Defense Act of 1999 (Public Law 106-38), which requires the
        United States to deploy an effective system capable of defending the United
        States against limited ballistic missile attacks. The President provided further
        direction in National Security Presidential Directive 23, “National Policy on
        Ballistic Missile Defense,” December 16, 2002, requiring the Secretary of
        Defense to deploy an initial set of missile defense capabilities in 2004.
        Presidential Directive 23 also states that the Secretary of Defense must develop
        and deploy a BMDS with the best technologies available.

        Missile Defense Agency. On January 2, 2002, the Secretary of Defense
        expanded the MDA responsibility and authority by directing MDA (formerly the
        Ballistic Missile Defense Organization) to develop and field a single integrated
        BMDS to protect the United States, its deployed forces, friends, and allies against
        ballistic missiles of all ranges in all phases of flight. Additionally, the Secretary
        of Defense emphasized the need to field MDA elements* or key components of
        element capabilities as soon as practicable and to improve the BMDS with
        incremental block upgrades. The MDA elements were Aegis Ballistic Missile
        Defense; Terminal High-Altitude Area Defense; Airborne Laser; Command and


*
 When the MDA was created, the Secretary of Defense placed a number of individual Service acquisition
programs that became components of the Ballistic Missile Defense System under MDA control. These
formerly independent programs, which receive their funding (Research, Development, Test and
Evaluation) directly from the Missile Defense Agency, became one major defense acquisition program
known as Missile Defense Agency elements.




                                                  1
    Control, Battle Management, and Communications; Ground-Based Midcourse
    Defense; Kinetic Energy Interceptor; Patriot Advanced Capability-3; BMDS
    Sensors; and Space Tracking and Surveillance System.

    To accomplish the Secretary’s directions, MDA implemented a capability-based
    acquisition strategy using a developmental test bed and a series of biennial
    developmental blocks. Each block permits MDA elements to insert newly
    developed component capabilities. The first biennial development block,
    Block 04, occurred during 2004 and 2005. MDA had defined developmental
    capabilities for biennial development out to Block 14, which will occur during
    2014 and 2015. Each block will build on the capabilities developed during
    previous blocks, and each successive block will provide increasing levels of
    capability to counter ballistic missiles of all ranges and phases of flight. The
    MDA budget for FY 2006 was $7.7 billion in research, development, test, and
    evaluation funds.

    Deputy Secretary of Defense Direction. On October 9, 2004, the Deputy
    Secretary of Defense issued DoD Directive 5134.9, “Missile Defense Agency,”
    formalizing the establishment of MDA and assigning its mission, responsibilities,
    functions, relationships, and authorities. The Directive requires the Director,
    MDA to manage and execute the development of the BMDS in accordance with
    National Security Presidential Directive 23, and the direction the Secretary of
    Defense provided in January 2002. In performing the assigned functions, the
    Director, MDA must report directly to the Under Secretary of Defense for
    Acquisition, Technology, and Logistics, and coordinate with the Military
    Departments; the Chairman of the Joint Chiefs of Staff; the Commander, U.S.
    Strategic Command (USSTRATCOM); the Under Secretary Defense for Policy;
    and the Under Secretary of Defense for Intelligence when addressing issues under
    their respective purview, to include the strategy, policy, and intelligence
    implications of missile defense capabilities. In addition, the Director, MDA is
    required to manage BMDS consistent with the principles of DoD Directive
    5000.1 and DoD Instruction 5000.2.


Objectives
    Our overall audit objective was to evaluate allegations from the Defense Hotline
    regarding the adequacy of the processes that MDA used to generate required
    system capabilities. Specifically, the audit determined whether MDA adequately
    defined system capabilities for effective development, production, and military
    deployment. See Appendix A for a discussion of the audit scope and
    methodology and prior audit coverage related to the audit objectives.


Managers’ Internal Control Program
    The scope was limited to the management control processes related to the specific
    allegations.



                                        2
           Implementing a Capability-Based
           Requirements Process
           Although MDA had made significant progress, it had not fully
           implemented a capability-based requirements process for generating
           requirements for the BMDS. Specifically, MDA had not completed
           defining processes for developing capability-based requirements and for
           coordinating with the combatant commanders to prioritize their capability-
           based requirements. These conditions occurred because MDA had not
           fully implemented DoD policy requiring the Director, MDA to develop
           programmatic policy for managing the acquisition of BMDS and to
           coordinate with combatant commanders to prioritize their capability-based
           requirements. Additionally, MDA was tasked with quickly designing a
           single integrated system from a group of existing acquisition programs
           and fielding a missile defense capability in 2004. This urgent task delayed
           MDA development of programmatic policy and processes for managing
           the acquisition of BMDS and coordinating with combatant commanders to
           prioritize their capability-based requirements. Documented procedures
           are needed to ensure that MDA organizations adhere to an MDA-approved
           process for defining requirements for future BMDS blocks. Further,
           MDA needs fully defined procedures to facilitate the combatant
           commanders’ roles in developing and prioritizing capability-based
           requirements for missile defense.


Capability-Based Requirements Policy
    Establishing Policies and Procedures. Secretary of Defense memorandum,
    “Missile Defense Program Direction,” January 2, 2002, exempted MDA from the
    traditional DoD requirements generation process of the Chairman of the Joint
    Chiefs of Staff Instruction 3170 and canceled the Service’s Operational
    Requirements Documents for the BMDS elements. In addition, the Secretary of
    Defense memorandum tasked the Director, MDA with establishing a process that
    sets initial capability standards, engages the participation of future users early and
    throughout development, and permits capability trades across all BMDS elements.
    Further, DoD Directive 5134.9 states that the Director, MDA is responsible for
    programmatic policy and research and development of the BMDS.

    Coordinating With Combatant Commanders. DoD Directive 5134.9 states
    that the Director, MDA must obtain combatant commander participation and
    advice on desired operational features of the BMDS throughout the development
    process as stipulated in the Secretary of Defense’s memorandum dated
    January 2, 2002. The DoD Directive also tasks USSTRATCOM with collecting
    and prioritizing the combatant commanders’ desired ballistic missile defense
    capabilities. The combatant commanders, in addition to USSTRATCOM, include
    the Reserve Affairs Worldwide Support, and the U.S. Central, European, Joint
    Forces, Northern, Pacific, Southern, Special Operations, and Transportation
    Commands. DoD Directive 5134.9 also amplified the provisions of “Unified



                                          3
    Command Plan, Change 2,” January 10, 2003, which established USSTRATCOM
    as the lead for advocating desired global missile defense characteristics for all
    combatant commanders.


Documenting Policies and Procedures
    Initial Efforts to Establish Capability-Based Requirements Policy and
    Procedures. As of February 2005, MDA had not established formal policies and
    procedures to document and define the process it used to identify joint military
    capability-based requirements for missile defense.

    Since the Secretary of Defense tasking in January 2002, MDA had been fully
    engaged in initiating a capability-based requirements process and providing the
    documentation needed to support developing Block 04, as well as meeting the
    requirements of National Security Presidential Directive 23, December 16, 2002,
    for the early fielding of an initial defensive capability. This urgent work delayed
    MDA development of programmatic policy and processes for developing
    capability-based requirements. As of February 2005, MDA Systems Engineering
    and Integration (SE) Directorate had provided an overview briefing on how MDA
    initiated a process to derive system capability requirements for Block 04.

    To identify capability requirements, the MDA SE Directorate initiated and
    worked through a capability-based requirements process that:

           •   established possible adversary capabilities;

           •   set technical objectives and goals for missile defense based on
               political, operational, economic, and technical factors, as well as
               possible adversary capabilities; and

           •   developed and assessed alternatives for capability-based requirements.

    The primary products of the above process included the Ballistic Missile Defense
    Program Baseline for BMDS Block 04, which explained technical, operational,
    and programmatic objectives, and the System Capabilities Specification for
    Block 04, which listed capability-based requirements. Using an incremental
    spiral development acquisition strategy, MDA repeated the process to baseline the
    system and element requirements for Block 06.

    Staff of the SE Directorate acknowledged that they had not developed formalized
    policies and procedures for documenting the MDA process for deriving
    capability-based requirements.

    Progress Made From February 2005 Through January 2006. During this
    timeframe, MDA made progress in establishing formalized policies and
    procedures for documenting the capability-based requirements process for the
    BMDS. Specifically, MDA used the briefing charts discussed above as a starting
    point for developing the “Integrated Program Policy (IPP),” July 18, 2005, and
    the “Ballistic Missile Defense Integration Program Policy Implementation


                                         4
Guide,” (the Implementation Guide) June 2, 2005, which together document the
MDA Director’s policies and procedures for acquiring the BMDS. The IPP
defines key decisions that the Director, MDA will make during acquisition of
each BMDS block. The IPP also discusses supporting products, including
capability-based requirements, that are essential to ensure that the Director, MDA
makes decisions based on the best available information. However, the IPP is a
top-level policy document that does not attempt to define the processes and
procedures needed to develop the products that will be used to support the key
Director decisions.

Like the IPP, the Implementation Guide does not define the processes and
procedures needed to develop the products supporting the key Director decisions.
The Implementation Guide identifies the products that support the key Director
decisions and assigns internal MDA organizations with responsibility for
formulating and documenting the procedures for preparing the products.
Additionally, the Implementation Guide requires the MDA organizations with
responsibility for product production to execute the procedures for developing the
products. Further, the Implementation Guide requires the MDA organizations to
ensure that their processes, implementing documents, and terminologies are
consistent with the IPP.

In another initiative, MDA established Directive 5000.02, “Target Planning
Process for Ballistic Missile Defense System Block-Capabilities Testing,”
November 8, 2005, which documents the process MDA will use for defining and
certifying targets required for testing the BMDS capabilities.

Work Still Needed to Fully Implement Capability-Based Requirements
Policy and Procedure. Although MDA made significant progress in establishing
top-level MDA policy and guidance in the IPP and the Implementation Guide, it
still needs to further define and document processes and procedures to develop
capability-based requirements. Specifically, the MDA internal organizations,
including the SE Directorate, had not completed documenting the processes and
procedures used for developing MDA capability-based requirements products.
MDA should complete its effort to formalize its policy and procedures for
defining capability requirements for the following reasons.

       •   Under its incremental spiral development acquisition strategy, MDA
           must still develop capability-based requirements for future BMDS
           blocks. Formalized procedures for determining and validating
           capability-based requirements will ensure that the MDA staff adheres
           to an MDA-approved capability-based requirements process for
           defining requirements for future BMDS blocks.

       •   MDA must effectively work with many DoD organizations, including
           the combatant commanders, the Chairman of the Joint Chiefs of Staff,
           and the Military Departments in formulating capability-based
           requirements. Formalized policy and procedures will help those DoD
           organizations better understand the MDA capability-based
           requirements process and better execute their roles in contributing to
           that process.



                                    5
Coordinating With the Combatant Commanders
    Initial Efforts to Establish Coordination. As of February 2005, the MDA had
    not fully complied with the DoD Directive 5134.9, which requires MDA to
    engage weapon system users in defining, prioritizing, determining, and validating
    requirements for the BMDS through coordination with USSTRATCOM, advocate
    for the combatant commanders.

    Staff in Missile Defense Operations at USSTRATCOM stated that MDA had not
    coordinated with USSTRATCOM to allow the combatant commanders to have
    formal input in defining and prioritizing BMDS capability-based requirements
    documented in the MDA System Capability Specification for the Block 04 Initial
    Defensive Capability, January 20, 2004. In support of the System Capability
    Specification for Block 04, the staff stated that MDA informally coordinated
    BMDS requirements for the Command and Control, Battle Management, and
    Communications Element, but not requirements for the other BMDS elements.

    MDA did not initially coordinate and obtain prioritized BMDS capability-based
    requirements from the combatant commanders because of the need to expedite
    establishing capability-based requirements in System Capability Specification
    Block 04 to meet the President’s direction to field an initial defensive capability
    in 2004.

    The USSTRATCOM staff stated that MDA and USSTRATCOM still needed to
    establish a joint process for soliciting, consolidating, and prioritizing combatant
    commander inputs. To fulfill their responsibility as the lead advocate for
    combatant commanders, as directed in DoD Directive 5134.9 and in “Unified
    Command Plan, Change 2,” USSTRATCOM was developing a process for
    soliciting and prioritizing inputs from combatant commanders for desired missile
    defense capabilities. USSTRATCOM outlined this process in the draft
    instruction “Missile Defense Warfighter Involvement Process.” As drafted, the
    instruction will require warfighters at the combatant commands to be involved in
    the process of identifying desired missile defense capabilities. The process is
    designated the Warfighter Involvement Process (WIP). Through the WIP,
    USSTRATCOM will provide the MDA with a prioritized capabilities list derived
    from the inputs of combatant command focus groups. The MDA will then be able
    to use the prioritized capabilities list to develop capability-based requirements for
    future BMDS blocks. As of February 2005, USSTRATCOM planned to have the
    combatant command focus group initially address the capability-based
    requirements for the Command and Control, Battle Management, and
    Communications Element. Although USSTRATCOM had planned WIP-related
    activities such as the combatant command focus groups, it had not finalized the
    instruction defining the WIP process. Further, USSTRATCOM and MDA had
    not agreed on a procedure for using the prioritized capabilities list in the MDA
    capability-based requirements process.

    Progress From February 2005 Through January 2006. Since February 2005,
    MDA has made progress in establishing coordination procedures with the
    combatant commanders through USSTRATCOM. However, MDA was still



                                          6
working with USSTRATCOM to finalize the procedures to allow the combatant
commanders to have input into the process for establishing capability-based
requirements for BMDS.

Specifically, MDA and USSTRATCOM developed a draft memorandum of
agreement (MOA) to address coordination procedures. The draft MOA outlines
the procedures MDA and USSTRATCOM will use for documenting, validating,
and prioritizing the combatant commanders’ capability-based requirements for the
BMDS elements. The draft MOA assigns MDA responsibility for the following
actions:

       •   providing a focal point to USSTRATCOM for desired future
           capability coordination;

       •   identifying key events, meetings, reviews, and products where the
           combatant commanders can most effectively influence development of
           capability-based requirements for the BMDS elements; and

       •   implementing a directive that defines specific MDA responsibilities,
           authorities, organizations, actions, and processes for the WIP and
           corresponds with WIP activities identified in the draft
           USSTRATCOM directive.

The draft MOA assigns USSTRATCOM responsibility for the following actions:

       •   constructing and maintaining a prioritized list of desired future missile
           defense capabilities (the prioritized capabilities list);

       •   actively participating in MDA technical reviews and other meetings to
           ensure the desired capabilities are correctly represented; and

       •   finalizing and implementing the draft directive that defines specific
           USSTRATCOM responsibilities, authorities, organizations, actions,
           and processes for the WIP and corresponds with WIP activities
           identified in an MDA directive.

The MDA Implementation Guide, discussed under “Documenting Policies and
Procedures,” also indicates that MDA will use input from the combatant
commanders in developing its budget submission. Specifically, the
Implementation Guide states how MDA will use the USSTRATCOM prioritized
capabilities list in developing the Gap Analysis Report that MDA uses in
preparing the Director’s Program Objective Memorandum and Budget Estimate
Submission Guidance. The Implementation Guide further indicates that MDA
will use the WIP Assessment, which provides the warfighter’s views on new
capabilities needed in the block being planned, as input to the Concept
Descriptions, which provide technical substance to the Director’s Proposed
Missile Defense Plan. MDA will also use the WIP Assessment as input to the
decision making process for “Decision Memorandum 1, Initiate Program
Planning,” which will be the approval to initiate formal planning for a specific
BMDS block.



                                     7
    Additionally, MDA has increased combatant commander involvement in focus
    groups, meetings, and reviews related to developing capability-based
    requirements for the BMDS elements. The Operational Integration and Support
    Directorate in MDA has primary responsibility for involving USSTRATCOM in
    those activities.

    Lastly, MDA is making plans for an organizational realignment that will provide
    the combatant commanders with a direct interface with the Director, MDA.
    Specifically, the organizational realignment will give the Warfighter Integration
    and Deployment advisor in MDA a direct interface with the Director, MDA. This
    high-level interface should make MDA more responsive to the warfighter in
    defining missile defense capability needs.

    Work Still Needed to Fully Implement Coordination With the Combatant
    Commanders. Although MDA made progress toward improving coordination
    procedures with the combatant commanders through USSTRATCOM, MDA and
    USSTRATCOM need to finalize the MOA as well as finalize their internal
    directives to implement the provisions of the MOA. Only then can the combatant
    commanders have a meaningful role in determining the capability-based
    requirements for the BMDS elements.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Director, Missile Defense Agency establish dates
    for Missile Defense Agency organizations to complete documenting the
    processes and procedures for defining capability-based requirements in
    support of key Director decisions as specified in “Ballistic Missile Defense
    Integrated Program Policy Implementation Guide,” June 2, 2005.

    Management Comments. The Executive Director of the Missile Defense
    Agency, responding for the Director, concurred, stating that MDA would approve
    the Systems Engineering Plan in the third quarter of FY 2006.

    Audit Response. The Executive Director’s comments were responsive to the
    intent of the recommendation because MDA intends to include the processes and
    procedures for defining capability-based requirements in the Systems Engineering
    Plan. In the audit followup process, we will review the approved Systems
    Engineering Plan to verify that it fully documents the processes and procedures
    for defining capability-based requirements in support of key Director decisions as
    specified in the “Ballistic Missile Defense Integrated Program Policy
    Implementation Guide,” June 2, 2005.

    2. We recommend that the Director, Missile Defense Agency, and the
    Commander, United States Strategic Command:

           a. Finalize and approve the draft memorandum of agreement
    outlining the responsibilities for the Missile Defense Agency and the United



                                        8
States Strategic Command to work together in developing capability-based
requirements for missile defense in compliance with DoD Directive 5134.9,
“Missile Defense Agency,” October 9, 2004.

        b. Establish completion dates for preparing and finalizing directives
discussed in the memorandum of agreement that will define Missile Defense
Agency and the United States Strategic Command responsibilities for
coordinating and ensuring that the combatant commanders have a role in
establishing capability-based requirements for the Ballistic Missile Defense
System elements.

Director, Missile Defense Agency Comments. The Executive Director of the
Missile Defense Agency concurred with comment, stating that USSTRATCOM
decided that the memorandum of agreement between MDA and USSTRATCOM
was not necessary. Instead, the Executive Director stated that the MDA and
USSTRATCOM were taking alternative actions that met the intent of the
recommendation. Specifically, the Executive Director stated that the MDA
Integrated Program Policy and Systems Engineering Plan would document the
combatant commanders’ roles in developing capability-based requirements in
MDA products and processes. Similarly, she stated that USSTRATCOM was
coordinating a Command Directive to implement combatant command activities
in the Combatant Command Warfighter Involvement Process.

Audit Response. The Executive Director’s comments were responsive to the
intent of the recommendation. In the audit followup process, we will review and
verify that the MDA Integrated Program Policy and Systems Engineering Plan
fully documents the processes and procedures for working with USSTRATCOM,
to include input from the combatant commanders, in developing capability-based
requirements for the Ballistic Missile Defense System elements.

Commander, United States Strategic Command Comments. The Audit
Program Coordinator at the United States Strategic Command responding for the
Commander, concurred, stating in an e-mail that USSTRATCOM agreed with the
recommendation.

Audit Response. In response to the final report, we request that the Commander,
United States Strategic Command describe actions taken or planned in response
to the agreed-upon recommendation, provide an estimated completion date for the
actions, and sign the comments.




                                   9
Appendix A. Scope and Methodology
       We evaluated the adequacy of the processes that MDA uses to generate system
       capability-based requirements. We reviewed documents dated from April 1998
       though November 2005. Specifically, we reviewed the MDA threat assessments,
       test plans, capabilities documents, and adversary capability descriptions prepared
       through Block 04. We also reviewed USSTRATCOM briefing charts and the
       draft “Missile Defense Warfighter Involvement Process.” We interviewed
       personnel from the MDA Directorates for Systems Engineering and Integration;
       Command, Control, Battle Management and Communications; Concepts and
       Experimentations; and Test and Assessment; as well as USSTRATCOM
       personnel to determine the extent of coordination between MDA and
       USSTRATCOM in identifying capability-based requirements and planned BMDS
       testing through Block 04.

       We performed this audit from May 2004 through February 2005 and from
       October 2005 through January 2006 in accordance with generally accepted
       government auditing standards.

       Use of Computer-Processed Data. We did not use computer-processed data to
       perform this audit.

       Use of Technical Assistance. Two electrical engineers from the Electronics
       Engineering Branch, Technical Assessment Division, of the Audit Policy and
       Oversight, DoD Office of Inspector General, assisted in the audit. The two
       electronics engineers assisted the audit team by analyzing the systems engineering
       efforts used in support of the capability-based requirements development process.

       Government Accountability Office High-Risk Area. The Government
       Accountability Office has identified several high-risk areas in DoD. This report
       provides coverage of the DoD weapon acquisition process high-risk area.


Prior Coverage
       No prior coverage has been conducted on the capability-based requirement
       development process at MDA during the last 5 years. In response to allegations
       made to the Defense Hotline, DoD Inspector General (IG) issued a report on
       managing the acquisition of the targets. Unrestricted DoD IG reports can be
       accessed at http://www.dodig.mil/Audit/reports.


DoD IG

DoD IG Report No. D-2005-048, “Acquisition of Targets at the Missile Defense
Agency,” April 6, 2005



                                           10
Appendix B. Results of Review of Five Allegations
    We did not substantiate the five allegations that were made regarding the process
    MDA used to define capability-based requirements for the BMDS. The
    allegations fell into two broad areas:

            •   MDA disregard of the missile defense requirements that the Services
                previously established in Operational Requirement Documents (ORD),
                and

            •   flaws in the MDA system capability-based requirements process.

System Requirement Documents
    Allegation 1. MDA disregarded requirements that the Military Departments
    previously established in system ORDs.

    Audit Results. We did not substantiate the allegation. Although the Secretary of
    Defense cancelled the system ORDs approved by the Services, the MDA did
    carry over many of the ORD requirements in the new elements capability
    specification documents. The Secretary of Defense memorandum, “Missile
    Defense Program Direction,” January 2, 2002, cancelled the Service missile
    defense ORDs because they were inconsistent with the proposed BMDS
    development program objectives. In place of the element ORDs, MDA defined
    capability-based requirements for Block 04 of the overall BMDS in the System
    Capabilities Specification. MDA used the System Capability Specification to
    define the capability-based requirements for the individual MDA elements in the
    element capability specification documents. To determine whether MDA
    disregarded the systems requirements that the Military Departments had
    established in the ORDs, we compared the cancelled ORDs for the Terminal
    High-Altitude Area Defense (THAAD) (previous Army), Aegis Ballistic Missile
    Defense (BMD) (previous Navy), and Airborne Laser (ABL) (previous Air Force)
    elements. In all cases, MDA carried over significant portions of the cancelled
    ORD requirements into the element Capability Specification for Block 04.
    Examples of requirements that MDA carried over for THAAD included targets
    characteristic, target launch regions, and target range. Examples of requirements
    that MDA carried over for Aegis BMD included the probability of single shot
    engagement kill, other mission retention and resource allocation, and cueing
    mode. Examples of requirements that MDA carried over for ABL included battle
    management, mean time between critical failure, and turn time.


MDA Capability-Based Requirements Process
    Allegation 2. MDA established a capability-based requirements process that
    primarily tried to predict what the threat will be, with little regard for the existing



                                          11
threat. As a result, MDA designed test programs to evaluate element performance
against what the existing threat may evolve to, rather than against actual threat
characteristics.

Audit Results. We did not substantiate the allegation. MDA was in the process
of fully implementing a capability-based requirements process that predicts what
the threat will be for the elements. MDA test plans, however, included plans to
evaluate element performance against existing threats, as well as element
performance against what the existing threat may evolve to. The MDA test plans
included tests against both existing and technically feasible threat capabilities for
the purpose of helping MDA avoid BMDS obsolescence.

To document threat capabilities, MDA prepared the Adversary Capabilities
Document to define the threats the BMDS will, or could, encounter. In the
Adversary Capabilities Document, MDA considered both actual and technically
feasible threats, assuming that if a threat capability is technically feasible,
adversaries could deploy it against the BMDS. To support element test plans for
Block 04, MDA developed the Adversary Data Package from the Adversary
Capabilities Document to define threat scenarios.

Although we did not substantiate the allegation that element test plans did not
address existing threat characteristics, we did determine that MDA did not fully
implement the capability-based requirements process for determining BMDS
element requirements. The finding discusses this issue.

Allegation 3. MDA established a capability-based requirements process that did
not address specific measurable parameters for fieldability.

Audit Results. We did not substantiate the allegation. The System Capability
Specification for Block 04 identified measurable parameters for fieldability.
Specifically, MDA planned to partially field the Command and Control, Battle
Management, and Communications; the Ground-Based Midcourse Defense; the
Aegis BMD; and the Space-Based Infrared System Mission Control Station
Capabilities during Block 04. The System Capability Specification for Block 04
contained specific, measurable fieldability parameters for element reliability,
availability, and environment situations.

Allegation 4. MDA established a capability-based requirements process that
disregarded established system designs for THAAD and Aegis BMD that were
based on realistic threat parameters.

Audit Results. We did not substantiate the allegation. Engineers from our Audit
Followup and Technical Support Directorate determined that MDA was
enhancing, rather than disregarding, established THAAD and Aegis BMD
element system designs as part of implementing the January 2002 Secretary of
Defense direction to establish a development program for a single BMDS. Our
engineering staff stated that MDA could not have met the requirements of the
National Security Presidential Directive 23 for fielding an initial set of missile
defense capabilities in 2004 without carryover of the established systems designs
for the Aegis BMD and THAAD elements.



                                     12
For THAAD, the engineering staff reviewed the following design-related
documents:

       •   “Systems Capability Specification for BMDS,” January 20, 2004;

       •   “THAAD Development Master Test Plan,” October 24, 2003;

       •   “THAAD Performance Specification,” April 25, 2003;

       •   “BMDS Technical Objectives and Goals,” May 7, 2002; and

       •   “THAAD System Specification Tree,” June 2, 2000.

These documents show that established designs for major components, including
the launcher, the missile, the command control ballistic missile communication,
and the radar carried over into the design for Block 04. Additionally, the
engineers determined that the 54 engineering change proposals the MDA
approved for THAAD were necessary to provide interfaces with the other BMDS
elements or to add capabilities. They also concluded that MDA did not disregard
previous design work.

For Aegis BMD, the engineering staff reviewed the following design-related
documents:

       •   “Element Capability Specification for Aegis Element,”
           October 1, 2004;

       •   “Systems Capability Specification for BMDS,” January 20, 2004;

       •   “Aegis Development Master Test Plan,” October 31, 2003;

       •   “BMDS Technical Objectives and Goals,” May 7, 2002; and

       •   “Aegis Operation Requirements Document,” April 6, 1998.

These documents show that the Aegis BMD system design for Block 04 included
design requirements from the original Aegis BMD design. MDA modified
original Aegis BMD system design to enhance surveillance, tracking, and
intercept functions to meet the BMDS mission. Future Aegis BMD block
enhancements will include Aegis BMD improvements to increase remote sensor
and radar discrimination capabilities.

Allegation 5. MDA established a capability-based requirements process that did
not consider test planning efforts already underway. Therefore, MDA had to
completely rework all test planning documentation, which took years to develop
and implement.

Audit Results. We did not substantiate the allegation. MDA did consider test
planning efforts underway at the element level. For example, MDA carried over
portions of test plans from the previous test and evaluation master plans for the
ABL and THAAD to the MDA Developmental Master Test Plans for Block 04.


                                    13
Test plans that MDA carried over for the THAAD included plans for safety,
environmental, and separation effects tests. For ABL, MDA carried over plans
for testing beam control, fire control, and laser safety and performance. Although
MDA did perform significant rework of test plans, this rework was necessary
because the January 2, 2002, Secretary of Defense memorandum directed MDA
to combine individual missile defense systems into an integrated BMDS. As a
result, MDA prepared the “Integrated Master Test Plan,” November 9, 2004,
which included testing of the integrated BMDS.




                                    14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Element/Budget)
Assistant Secretary of Defense for Homeland Defense
Assistant Secretary of Defense for Networks and Information Integration
   Deputy Assistant Secretary of Defense for Space Program
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Commands
Commander, U.S. Joint Forces Command
  Inspector General, U.S. Joint Forces Command
Commander, U.S. Strategic Command

Other Defense Organizations
Director, Missile Defense Agency




                                          15
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform




                                       16
Missile Defense Agency Comments




                     17
18
United States Strategic Command Comments




                    19
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Mary L. Ugone
Richard B. Jolliffe
John E. Meling
Harold C. James
Andrew D. Greene
Nathan R. Witter
Douglas W. Slaughter
Jaime A. Bobbio
Wei K. Chang
Jillisa H. Milner
